HHS/OIG-Audit--"Review of the Health Care Financing Administration's Health Maintenance Organization Loan and Loan Guarantee Fund for Fiscal Year 1991, (A-14-91-03002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Health Care Financing Administration's Health Maintenance
Organization Loan and Loan Guarantee Fund for Fiscal Year 1991," (A-14-91-03002)
August 27, 1993
Complete Text of Report is available in PDF format
(1.8 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Health Care Financing
Administration's (HCFA) Health Maintenance Organization (HMO) Loan and Loan
Guarantee Fund for Fiscal Year 1991. The objective of our review was to determine
whether the HMO loan fund financial transactions were accurately recorded and
reported. We also reviewed internal control policies and procedures for recording
and documenting payments, monitoring HMO loans, and writing off delinquent HMO
loans. We found that internal controls need improvement to ensure that all HMO
loan payments and liabilities are accurately and properly reported and that
written procedures are established to document the HCFA deviations from Department
of the Treasury reporting. We also found that internal controls need improvement
to ensure that the general ledger balance for loans payable is reconciled to
the Office of Prepaid Health Care's supporting records.